<html>
<title> - REILLY NOMINATION</title>
<body><pre>[Senate Hearing 115-507]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-507

                           REILLY NOMINATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   TO

   CONSIDER THE NOMINATION OF DR. JAMES REILLY TO BE DIRECTOR OF THE 
                    UNITED STATES GEOLOGICAL SURVEY

                               __________

                             MARCH 6, 2018

                               __________


              [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________   
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
29-768                   WASHINGTON : 2019    


        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Annie Hoefler, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     2
Gardner, Hon. Cory, a U.S. Senator from Colorado.................     3

                                WITNESS

Reilly, Dr. James, nominated to be Director of the United States 
  Geological Survey..............................................     4

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Association of Petroleum Geologists:
    Letter for the Record........................................    42
Cantwell, Hon. Maria:
    Opening Statement............................................     2
Gardner, Hon. Cory:
    Opening Statement............................................     3
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Reilly, Dr. James:
    Opening Statement............................................     4
    Written Testimony............................................     8
    Responses to Questions for the Record........................    28

 
                           REILLY NOMINATION

                              ----------                              


                         TUESDAY, MARCH 6, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone, and welcome. The 
Committee will come to order as we begin our hearing to 
consider the nomination of Dr. James Reilly to be Director of 
the U.S. Geological Survey (USGS).
    This is a critical agency. It is tasked with surveying and 
inventorying our nation's mineral base. It provides real-time 
data for volcanic eruptions, landslides, earthquakes, and more. 
It deploys thousands of stream gauges throughout the United 
States to monitor groundwater and river levels. This critical, 
objective data helps decision-makers understand how geologic 
processes impact human life, national security, and vital 
infrastructure.
    I have to tell you Dr. Reilly, when I first heard about 
your nomination, I thought it was a little bit strange that we 
were going to be speaking with an astronaut, an astronaut 
nominated to run the agency that really focuses on rocks, 
geology, and stuff deep in the earth.
    But clearly your background in geosciences and geology, 
certainly as well as your service to our nation, make you 
qualified, certainly qualified, to run the Department of the 
Interior's premier science bureau.
    Dr. Reilly began his career researching stable isotope 
geochronology in Antarctica. He then spent 15 years as a 
geologist in Texas conducting surveys of oil and gas deposits 
in the Gulf of Mexico. While working as a geologist in Texas, 
he spent 22 days on the ocean floor in deep submergence 
vehicles, testing imaging technology used in deepwater 
engineering projects.
    He then transitioned from below the surface of the ocean, 
to space. Dr. Reilly has completed three missions to space to 
help repair the International Space Station, conducting five 
space walks and spending a total of 856 hours in space, so 
plenty of time to be thinking about how you are going to manage 
this agency on Earth here.
    Dr. Reilly truly has an impressive resume and it is good to 
finally have a geologist nominated to run the USGS, someone who 
can help the Survey re-prioritize its core mandate, which is to 
be a geological survey. This will not only help restore 
America's mineral security but also our economic and national 
security.
    Dr. Reilly, I welcome you to the Committee, and I thank you 
for your willingness to again serve our nation. I hope to move 
your nomination quickly, reporting you from the Committee as 
soon as possible.
    I also hope to confirm you, along with two other well-
qualified Interior nominees, Susan Combs and Ryan Nelson. I 
hope to confirm all of you as soon as possible.
    I would note that Ms. Combs and Mr. Nelson have now been 
stuck on the Senate calendar for more than five months. We 
don't want to put you in that position here, but that is far 
longer than we have seen with many predecessors in the previous 
Administration. We certainly want to figure out a good way to 
move those individuals through.
    Senator Cantwell, I turn now to your comments and opening 
statement.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
holding this hearing on Dr. Reilly's nomination for this very, 
very important position.
    Dr. Reilly has been quoted as saying that when he was an 
astronaut he never looked down on our planet from orbit without 
being ``amazed at how geology has played a significant role in 
the development of humankind.'' Thank you for that statement.
    Similarly, no institution has played a more significant 
role in our understanding of geology of our nation than the 
Geological Survey. The USGS does not just assess the nation's 
oil and gas and mineral resources, as important as that is, it 
also conducts natural hazard programs to help understand, 
prepare for, and respond to volcano eruptions, earthquakes, 
tsunamis, and landslides.
    It was in the Mount St. Helens disaster that we named a 
monument after David Johnston, the USGS volcanologist who was 
on duty during that implosion in May 1980.
    So they play very important roles for our nation. It 
monitors, it collects, and it analyzes data about our water 
resources. The work of USGS, as was said for oil and natural 
gas development and resource management, plays a very important 
role for stewardship of our land and water, for better 
management of water resources, to forewarn and protect 
communities from national hazards. Let me just say, Washington 
State has its very large number of active volcanoes, and we are 
very concerned about earthquakes, the Cascadia Fault, the 
prevalence of landslides, and even today, different issues 
related to snowpack. We have had several people already killed 
this year in avalanches.
    So, understanding the new weather patterns and what that 
means for the vulnerability and holdings of our lands, is very 
important and to improve our understanding of the nation's 
resources through very high-quality science.
    The Director of the Geological Survey needs to not only 
have a firm grounding in geological science, but also an 
understanding of the USGS broad mission and how important it is 
to work with a variety of diverse communities and use important 
data. It is a job that requires respect for the dedicated 
scientists at USGS, a willingness to defend their science and 
integrity, and a willingness to fight for adequate funding for 
the agency's important work.
    So I welcome you to the Committee. Congratulations on your 
nomination. I look forward to having a chance to ask questions, 
dialogue with you, about very important issues before this 
agency.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Gardner will be introducing Dr. Reilly, but before 
we begin that I would like to go ahead and swear you in.
    The rules of the Committee which apply to all nominees 
require that they be sworn in in connection with their 
testimony. So I would ask that you rise and please raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Dr. Reilly. I will.
    The Chairman. You may go ahead and be seated.
    Before you begin your statement, I will ask you three 
questions addressed to each nominee that appears before the 
Committee.
    Will you be available to appear before this Committee and 
other Congressional committees to represent departmental 
positions and respond to the issues of concern to the Congress?
    Dr. Reilly. I will, Senator.
    The Chairman. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict or 
create an appearance of such a conflict should you be confirmed 
and assume the office to which you have been nominated by the 
President?
    Dr. Reilly. There are none, Senator.
    The Chairman. Are you involved or do you have any assets 
held in blind trusts?
    Dr. Reilly. We do not.
    The Chairman. Thank you.
    Let's turn to Senator Gardner for your introduction.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Chairman Murkowski. I 
appreciate the opportunity to introduce a fellow Coloradan.
    Good morning, Dr. Reilly. Thank you for being here. Thank 
you for your commitment to public service and for your 
willingness to serve in this capacity.
    I am pleased, obviously, to introduce Dr. Reilly, an avid 
fisherman from Colorado Springs, and a uniquely qualified 
candidate to become the next U.S. Geological Survey Director.
    Now being in this position doesn't mean you are going to 
miss the hatch on the Arkansas River this year. Can you go back 
and do that or----
    Dr. Reilly. At your invitation----
    Senator Gardner. Very good, very good.
    The USGS, obviously, plays a critical role in our country's 
science, a critical role in earthquake and hazard monitoring, 
as has been mentioned here.
    We have a group of Colorado Farm Bureau attendees and their 
elite leadership academy who are here witnessing your testimony 
today. We talked a little bit, briefly, about them and the role 
that USGS plays in water, of course, oil and gas, some of the 
discoveries they have made in Western Colorado, and the 
significant deposits of natural gas in the Piceance Basin area.
    You have dedicated much of your life to our country, 
serving in the U.S. Navy and 13 years at NASA as a former 
astronaut. I was wondering if you ever are a former astronaut 
or you are just always, like a Marine, an astronaut?
    You have immense experience in geological research. Dr. 
Reilly has a deep understanding of the issues at hand.
    He also has the management experience necessary to run the 
USGS. He spent 17 years in the private sector as a manager and 
exploration geologist and has also served as the Dean of the 
School of Science and Technology at the American Public 
University System (APUS) where he oversaw 200 faculty that 
served more than 50,000 working adults seeking higher 
education. He also undertook the role of Associate VP of 
Strategic Relations for STEM programs at APUS. In this role, he 
oversaw the development of new strategic relationships and 
programs in the science, technology, engineering, mathematics 
fields. Also, he is currently serving the Department of Defense 
leading a team of space operations experts in developing a new 
education program for joint services and allied personnel, 
hosted by the U.S. Air Force at the National Security Space 
Institute in Colorado Springs.
    Dr. Reilly is a tremendous nominee and more than qualified 
for this position, not to mention, it is always great to have 
someone with Colorado roots and ties serving our fellow 
Americans.
    I look forward to Congress getting to know Dr. Reilly 
during this Committee hearing and certainly to your 
confirmation.
    Thanks, Dr. Reilly.
    The Chairman. Dr. Reilly.

STATEMENT OF DR. JAMES REILLY, NOMINATED TO BE DIRECTOR OF THE 
                UNITED STATES GEOLOGICAL SURVEY

    Dr. Reilly. Thank you, Senator. And thank you, Chairman 
Murkowski, Ranking Member Cantwell and the distinguished 
members of the Committee. I appreciate it.
    Thank you, Senator Gardner, for the gracious introduction 
and also for your service to our great home state of Colorado 
and to our nation. We appreciate it.
    It is certainly a privilege and an honor to be here before 
you this morning as President Trump's nominee to serve as the 
17th Director of the U.S. Geological Survey. Further, I 
wouldn't be here today without Secretary Zinke's faith in my 
capabilities and support for my nomination. I owe them both a 
great deal of thanks.
    I'm fortunate to have with me today my beautiful wife, 
Allison, who is a science teacher by background, right behind 
me. Two of my three oldest children are here as well. Trey, who 
is behind me as well, an employee of NASA at Kennedy Space 
Center working on projects that will take us back to the Moon 
and on to Mars. Jason and his wife, Rebekah, on my right behind 
me here, who are both first responders in cities in Central 
Texas. And my third child, who was going to be here this 
morning, Mary Caitlin, is currently dealing with some medical 
issues this morning, so she won't be joining us, but she is a 
resident of DC here and she works as a contractor in support of 
programs for the Department of Homeland Security. As you might 
see, public service seems to have become a little bit of a 
family tradition in our family, and I am immensely proud of 
their activities.
    Also with me today are some close friends. On my right here 
is Dave Waldrup. We've known each other since high school, so 
I've known him for almost 50 years, please discount almost 
anything he says. And Colonel Alvin Drew, who is behind me to 
my left, an astronaut colleague. He and I are very close 
friends, and we've known each other for many years as well. Not 
present today are my two youngest children, Jacob Luke and Anna 
Mary Rose. They are ages four and two and the reason they're 
not here is you wouldn't hear a thing I would say if they were 
present.
    [Laughter.]
    But as you know, the U.S. Geological Survey was created by 
the Organic Act of 1879, which provided for the 
``classification of the public lands and examination of the 
geological structure, mineral resources, and products of the 
national domain.''
    Since its founding, the USGS has maintained a proud 
tradition as the premier earth science agency delivering 
unbiased, independent scientific data and findings on critical 
questions before the nation to the decision-makers in the 
civil, government, and national defense sectors.
    As such, the reputation enjoyed by the USGS is matched only 
by NASA as being highly regarded by the citizens of our great 
country. And just like NASA, USGS attracts our nation's best 
and brightest students, who will be among the future decision-
makers in our country.
    My history with the USGS began in the early 1970s when I 
first started my educational path to becoming a geologist. I 
was, and remain, a consumer of the maps generated by the Bureau 
and also at a scientific conference in 1976 came upon a display 
of USGS literature which contained a publication on the first 
results of something called the Earth Resources Technology 
Satellite, or ERTS-1, which ultimately became the Landsat 
Program.
    I was fascinated in seeing imagery of the geology and 
ecology of our planet at scales that were impossible to achieve 
previously. In fact, I was so enamored with the capabilities of 
the ERTS mission that I camped out at the table at the end of 
the conference to lay claim to that volume. I still have it to 
this day and it serves as a useful reminder of how 
revolutionary the ability to see things in new ways is and can 
be in science.
    The Landsat Program is now looking to launch Landsat 9 in 
the series and considering the concepts of what the Landsat 10 
mission architecture might look like. If confirmed, I look 
forward to working with the team on that development.
    Today the USGS core missions are focused within the Energy 
and Mineral Resources and Environmental Health Programs, 
Ecosystems Programs, Land Resources, Natural Hazards, Water 
Resources, and Core Science Systems.
    In my career, I have been fortunate to have worked or lived 
in regions where most of these mission areas are critical. As 
Senator Gardner can attest, that western water in our home 
states is of great critical interest and it is one of the 
resources that we are having to manage very tightly.
    My dissertation further went on to build on the 
understanding of how regulatory or protection of unique marine 
ecosystems and how they interrelate with the geology of the 
continental slope interact, one of the core pieces of the 
missions within the USGS, of course, within the ecosystems 
piece.
    I have explored for and produced critical minerals required 
to build the technologies to drive our economic future, 
experienced natural cataclysmic effects where information from 
Landsat and the 3D elevation program, as examples, could 
mitigate the impacts and have spent almost three decades 
working in systems engineering for space systems applications.
    I've also been lucky enough to be counted with Alvin, Neal, 
Buzz and all the other explorers, who have gone to the 
frontiers of our knowledge and even pushed it just a little 
further out.
    Managing an organization as large and diverse as the USGS I 
can expect can be a challenge. I have found, however, in my 
management roles in the private, academic, government and 
military sectors, that highly competent, motivated people 
generally require little direct supervision from the top and I 
expect that would be the case, generally, at the USGS.
    I've found a simple concept utilized by Colonel Terry 
Wilcutt, the commander of my first mission, works very well 
both in smaller organizations with small teams and in larger 
organizations where the teams might consist of tens to hundreds 
of people. After our flight, I looked at how he managed the 
team required to meet our mission objectives and while he never 
referred to it in this way, he used what we call the Three 
Question Management theory. In short, he defined the roles and 
expectations then asked the following three questions to track 
progress and that was just: Do you have a plan? Is it working? 
And are you ahead or behind? He depended on our integrity to 
get the job done, trusted us to communicate problems or issues, 
and provided a clear communications and planning pathway, both 
vertically between the mission elements and horizontally across 
the different elements within the organization itself. If 
confirmed for this position, I would certainly strive to follow 
these same principles.
    Finally, it has been my experience that good science is 
absolutely critical to the development of good policy. USGS is 
known for the quality and integrity of the scientific work 
carried out by the approximately 8,000 personnel supporting the 
Bureau.
    If confirmed this will be one of my utmost priorities in 
supporting the efforts of our people to deliver the critical 
science to our nation.
    I thank you sincerely for this opportunity. Should I be 
confirmed, I look forward to working with each and every one of 
you and your offices to help serve the American people, and I 
stand ready to answer your questions.
    Thank you, Senator.
    [The prepared statement of Dr. Reilly follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Reilly. We appreciate your 
willingness to serve and that of your family to stand behind 
and support you. Welcome to all of them and to your friends. 
You have a good support system it looks like, so we are pleased 
that they are with you here today.
    I appreciate you mentioning the scientific integrity of the 
agency. I think USGS, we know, is known for its focus on 
seeking out the best science, the best data and doing so in a 
way that is not biased and that we can certainly look to. My 
hope is that you maintain that integrity within the agency.
    You mentioned your three-question approach. Do you have a 
plan? Is it working? And can you do it? Easy question for you, 
hopefully, this morning. With the USGS as it is structured 
today, do you feel that the agency is working as it needs to 
be?
    I have suggested that sometimes I think the USGS may have 
strayed from its core mission in recognizing the original 
mandate as authorized under the Organic Act. Do you feel that 
the agency is tracking right? If not, where do we need to 
adjust? Are there redundancies or duplications with other 
agencies? Give me your view in one minute or less.
    [Laughter.]
    Dr. Reilly. Thank you, Senator. I always like a challenge.
    The Chairman. Yes.
    Dr. Reilly. The--unfortunately, I can't really give you a 
good detailed answer for the question on where I think things 
might have strayed, but one of the things I will be doing, if 
confirmed, is I'll spend the first, certainly the first 30 days 
at the very least, talking with all the senior managers within 
the core mission areas and trying to evaluate how well they 
align with the Organic Act of 1879 because that is, as you 
point out, a very clear mission statement for the USGS. And 
we'll be looking very closely at that.
    And of course, I'd be happy to work with you and your staff 
on realigning it in anything that you might see being an issue 
where we would need some focus.
    The Chairman. Good, I appreciate that.
    I have directed a lot of my attention here on the Committee 
over these past several years focused on mineral security and 
recognizing that we are going in a direction, in terms of 
reliance on other nations, for some pretty key, critical 
minerals that are important to our national defense and to our 
economy.
    Last year, here in the United States, we imported 100 
percent of 21 different minerals and at least 50 percent of 
another 30. This reliance on other nations concerns me. I hope 
it concerns you. We are looking to lessen that dependence.
    The President and the Secretary recently signed an 
Executive and a Secretarial Order to strengthen our mineral 
security. I think that that is a step in the right direction, 
but I also recognize that that is an Executive Order. It is a 
Secretarial Order. I would like to do more from the legislative 
and the statutory authority.
    So the general question to you, again, is when it comes to 
understanding what it is that we have, understanding what it is 
that we lack, how do you view this within the responsibilities 
of the agencies? Do you think we need more statutory authority 
to address this level of dependency that currently exists?
    Dr. Reilly. Yes, Senator.
    The critical minerals question that is before the USGS 
today is obviously one that we need to focus on from a 
technical aspect, and it certainly fits within the Organic Act 
mission statement that we talked about.
    Identifying what those issues are inside the organization, 
particularly when it gets to statutory authorities, that of 
course, one I can't really answer today, but what I would 
certainly like to do is be to review that with you when I get a 
chance to put my feet on the ground there for a while and take 
a good hard look at what we've got and what, of course, I 
always like to be able to come back to you with a much more 
detailed answer on that one.
    The Chairman. Do you share my concern, though, about the 
dependency that we have on foreign sources?
    Dr. Reilly. Yes, yes, ma'am.
    In fact, some of the things I'm more familiar with from the 
satellite operations sides of things, you know, gallium which 
is critical to getting the solar arrays that work efficiently 
in space is one of those critical minerals, just as one 
example.
    And as you point out, there's literally dozens of these 
elements, the critical minerals, which include the rare earth 
elements, that are absolutely critical to build the new 
technologies that we need here in our own country. Being less 
dependent on that would be a strategic vulnerability, 
absolutely share your concern.
    The Chairman. Very good, I look forward to working with you 
on that.
    Dr. Reilly. Thank you.
    The Chairman. Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Dr. Reilly, as Director of USGS you will be asked to walk a 
line of being a political appointee in an agency that is based 
on science, and you will be tasked with maintaining the 
importance of scientific integrity and I appreciate your 
statement.
    A recent example involving the challenges, though, of 
scientific integrity was the resource assessment report of the 
petroleum reserve in Alaska. The news reports have made it 
clear that the current Administration was interested in 
obtaining sensitive data on the petroleum reserve prior to what 
is allowed by the Interior Scientific Integrity Policy, and 
several scientists resigned in protest.
    So the question is how will you at USGS be tasked with 
developing these many reports and also making sure that we are 
capturing sensitive information but also keeping the scientific 
integrity of the agency in place as to the rules and process?
    Dr. Reilly. Thank you, Senator.
    I'll deal with that last question first, if I may.
    Senator Cantwell. Yes.
    Dr. Reilly. The scientific integrity has got to be a key 
element of the USGS because they are, as you mentioned, it's an 
independent organization that is designed to deliver unbiased 
science to the decision-makers, to you, for example. And that 
will be one of the highest priorities that I'll have as the 
Director.
    The second piece which is about the resignations of 
staffers that were working within the USGS regarding a report 
that had been requested from the leadership of the Department 
of the Interior. I'm not certain of all the details there. I 
can only offer a qualified opinion on it and that would be 
based on my experience in my other occupations up to this 
point, I always felt like I had a responsibility to deliver 
information to my leadership, particularly if it had an impact 
on how the leadership was supposed to respond to it, 
particularly on something that might, indeed, be sensitive with 
the understanding that the leadership would hold that as tight 
as I would, in terms of it being protected information. And so, 
I would make sure that that communication goes vertically in 
both directions. If we ever felt like somebody would, could, 
come to me and tell me that they were in a position where they 
were uncomfortable with that, then we would, of course, deal 
with that specific example at the time and hopefully wouldn't 
get into the situation that occurred here. And again, I don't 
have the complete details on what happened, but that's my best 
assessment.
    Senator Cantwell. But you plan to use your ability to 
protect scientific information from political influence, undue 
political influence?
    Dr. Reilly. Yes, ma'am.
    If somebody were to come to me and say, I want you to 
change this because it's the politically right thing to do, I 
would politely decline.
    Senator Cantwell. Okay.
    What about the budget issues? I think that the FY2019 
budget is a 20 percent cut and proposed is cutting the 
scientific workforce by 15 percent, eliminating over 1,200 
positions. That is a pretty significant cut.
    How will you make sure that you are meeting the scientific 
integrity and the information that we need to understand these 
issues as it relates to the planet and the Earth, particularly, 
but we are working with in these various aspects that USGS 
covers?
    Dr. Reilly. Yeah, good question, Senator.
    The best way I can answer that here without really having a 
lot of the information that I would like to have at my 
fingertips would--the first thing I would do when I get there 
is I'm going to spend, as I mentioned earlier, the first 30 
days, really, just talking to everybody within the mission 
areas and then finding out where are the places that we can cut 
without seeing any significant impacts as far as meeting the 
budget challenges.
    The second piece is looking where can we go crossways 
across different organizations where we already contribute and 
then look for where we can find savings, potentially, there 
before we have to get into actually making significant cuts in 
any of the programs.
    Senator Cantwell. So the question is, again, you believe in 
the integrity of science and protecting and having the adequate 
resources to make sure that the scientific information is there 
for policymakers and others to make decisions on?
    Dr. Reilly. Yes, Senator.
    I'm fully committed to the scientific integrity. Science 
drives good policy, and good science has to be there for good 
policy to be made.
    Senator Cantwell. Well, I appreciate that.
    I can just tell you we have so many complex issues in the 
Northwest, so many, so many, so many, from salmon to water writ 
large, to--but I guarantee you, it is science that we have 
gotten around the table on, not because we agree, guarantee 
you.
    There are a lot of issues that a lot of people don't agree 
on in my state, but they come to the table around science and 
that has helped us every single time.
    Thank you for your willingness to serve.
    Dr. Reilly. Absolutely, Senator, and I look forward to 
working with you and your staff.
    Senator Cantwell. Thank you.
    Dr. Reilly. Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Capito.
    Senator Capito. Thank you.
    Thank you, Dr. Reilly, for your willingness to serve and 
your really stellar service to the nation.
    I am not sure if you are aware of this or not, but there is 
a partnership, a historic partnership, between West Virginia 
and the USGS in the form of the Leetown Science Center in 
Kearneysville, West Virginia. Leetown has played an important 
function providing ecological research for the Department of 
the Interior and other federal agencies. There is quite a bit 
of partnership going on there. Most of the research, I believe, 
is in aquatic life.
    I don't know if you have looked at this, in terms of stream 
ecology, but what is your view of the USGS' role in helping 
fisheries and science research to help maintain and sustain, 
not just our nation's fish for consumption, but also for sport 
fishing, et cetera?
    Dr. Reilly. Thanks for the question, Senator.
    I'm not exactly, not too familiar, with the specifics of 
the science center that you mention.
    Senator Capito. Right.
    Dr. Reilly. But one of the key things and one of the key 
mission areas within the USGS, of course, is the ecosystems 
piece and that would, of course, fit right into that.
    Senator Capito. Right.
    Dr. Reilly. So again, I'd have to just declare my ignorance 
on some of it at this point, but one of the things that I would 
certainly be ready and willing to do, particularly for folks in 
West Virginia, would be to come visit and work with you and 
your staff on those issues.
    Senator Capito. That sounds great. We would love to have 
you visit there after your confirmation. That would be 
terrific.
    I guess, again, getting back to our State of West Virginia, 
one of the more visible ways that the USGS has, I think, 
provided a great resource for us is in the hydrological 
research and analysis for floods and flash floods.
    In our state, our floods, they rise very quickly. We had a 
very tragic flood in June 2016 that took quite a few lives. I 
would like to hear some perspectives from you on the important 
role this plays in emergency services for the ability for 
people to protect their property but also to protect themselves 
in terms of being able to understand the predictability of 
flash flood or something in a mountainous region such as ours.
    Dr. Reilly. Yes, Senator.
    We, of course, in Colorado we see the same sorts of things.
    Senator Capito. Right.
    Dr. Reilly. But in terms of the top three priorities, 
hazards mitigation and identification, and identification of 
the conditions that lead to the hazards would, of course, be 
one of the things that I would be very tightly focused on for 
exactly that reason. It's a benefit directly to the people of 
our country.
    Senator Capito. Well, my understanding is that the stream 
gauges were/are critical in terms of being able to predict 
those floods and that the last two Presidential budgets have 
exhibited severe cuts in these areas which I would recommend 
against and would be in favor of restoring because of how 
quickly we can get very detailed information that is very good 
in hazard mitigation.
    Dr. Reilly. Yes, Senator.
    And I would be happy to work with you directly on that, 
once confirmed.
    Senator Capito. Great.
    Dr. Reilly. Absolutely.
    Senator Capito. Let me ask you just, kind of, an offshoot 
question here.
    Broadband deployment is something that is exceedingly 
important to those of us in rural areas, and it is woefully 
underdeveloped and really creating a digital divide between 
urban and rural areas.
    I am wondering with the mapping, and I know you don't map 
broadband services and all those kinds of things, but is there 
any interplay between USGS and would you see any interplay 
between USGS and further deployment of technologies such as 
that into areas all around the country or am I off on a wrong 
tangent there?
    Dr. Reilly. I can't really say at this point, Senator, but 
one of the obvious things that the USGS does is almost 
everything is an RF communications link as far as the sensors 
go, in many ways or in many cases, particularly in mountainous 
terrains. So if being able to map that distribution would be 
one aspect that may play into that and that would be one that 
would, of course, cross from USGS to FCC or some other agency. 
And of course, we'd be in a supporting role in that case.
    Senator Capito. Well, good.
    Well, I would look forward to working with you on something 
like that. I think it is going to take an all-hands-on-deck 
approach to get to that final mile, that final house, that 
final business and I would look forward to that.
    Thank you very much.
    Dr. Reilly. Thank you, Senator. I look forward to working 
with you.
    Senator Capito. Thank you.
    The Chairman. Thank you, Senator Capito.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Dr. Reilly, welcome.
    Dr. Reilly. Thank you.
    Senator Cortez Masto. Thank you for your willingness to 
serve. Welcome to your family. Welcome to your best friend, I 
think.
    [Laughter.]
    But listen, I am so appreciative that you are here.
    I do want to echo what I have heard from my colleagues, 
particularly when it comes to the budget that the President has 
introduced. It has increased funding for mineral and energy 
resources, increasing it to $84.1 million up from $73.1 
million, and there is the new initiative on 3D mapping. But it 
also reduces, among the deductions and there is more than 30 
percent of them, it reduces funding for areas that are an 
important focus for many of us, like the echo system, water 
resources, core science systems, natural hazards, and climate 
science investments.
    Let me just give you an example. In Nevada, specifically, 
the USGS is a great partner of ours and they do monitoring and 
data collection across the State of Nevada: monitoring and 
measuring of earthquake swarms in Reno, operation of the Nevada 
Water Science Center which collects data on current stream 
upflow conditions, groundwater and surface water data and water 
quality, developing science used by other agencies and sage 
grouse habitat planning, developing science that identified 
presence of lithium within the state and funding climate change 
research in the Great Basin by monitoring the pika which is a 
small, rabbit-like mammal. I tell you that because, like many 
of my colleagues, we have great partnerships and things going 
on and the concern with this budget is the cutbacks and the 
impact it is going to have.
    My question to you, and I understand you want 30 days to 
get in there and kind of assess and prioritize where you're 
going to be able to work, but do you think there would be any 
ripple effects or side effects for researchers from other 
institutions to not be able to work with the USGS scientists 
and the data they produce if these funding changes were to go 
into effect?
    Dr. Reilly. Yeah, thank you, Senator.
    The subject that you mentioned, in terms of the impedance 
of other organizations to be able to carry forward on their 
roles and responsibilities, that's a good question. I don't 
have a good answer for you, unfortunately. But as you point 
out, in 30 days when I hit the ground, I would be very happy to 
loop back with you and get you a better answer on that one 
particularly.
    Senator Cortez Masto. Thank you.
    Dr. Reilly. But one thing I did take note of in your 
question was the amount of effort that the USGS performs in the 
great State of Nevada and that one of the things you mentioned 
was the lithium which is, of course, another one of the 
critical minerals that we have to deal with and it's certainly 
on that list. And we absolutely have to have that to be able to 
do what we want to do on advanced electronics.
    Senator Cortez Masto. Right.
    Dr. Reilly. So, of course, we'll be looking at that very 
seriously.
    As far as the budget goes, I've only had a chance to read 
through the budget justifications, so I don't have a lot of the 
details on what it really means in terms of the realignments 
where some of the things have been moved from one place to 
another.
    But as you mentioned, in the first 30 days that's going to 
be one of the things that I want to ask of the staff and the 
professionals there and the rest and how does this fit? What 
does it mean to us? Where are we sensitive? What are the things 
that we need to be discussing more with the Secretary in terms 
of the budget? And of course, I'll be doing that on, almost, a 
daily basis.
    Senator Cortez Masto. Great.
    Can I get a commitment from you that, once appointed and 
after you have done your analysis, if there is going to be an 
impact to Nevada, you will be willing to reach out and work 
with us and talk with us about the issues?
    Dr. Reilly. Senator, I'll make that commitment right now.
    Senator Cortez Masto. Good, and welcome to Nevada. You are 
welcome any time.
    [Laughter.]
    Dr. Reilly. I'll be happy to join you there. Thank you very 
much.
    Senator Cortez Masto. And as you well know, USGS has well 
over 200 programs, offices, laboratories, field stations and 
different facilities across the country with numerous 
partnerships with universities and other educational 
institutions. Can you share your thoughts on the important role 
these partnerships have with work and products created by USGS?
    Dr. Reilly. Yeah, I can give you a first-person perspective 
on at least the university partnerships. That gives students 
the opportunity to do real world science and work within the 
realm of where they are likely to end up. So it gives them a 
proving ground in many ways. It gives us the opportunity to get 
a fresh set of eyes, if nothing else, looking at problems that 
many of us are probably too close to quite often. So we get an 
opportunity to bring them in.
    So, university partnerships are really a good strategic 
resource for almost anybody. That was one, in the academic 
world, I fostered quite extensively with the STEM programs is 
pushing students out into the industry and also into government 
so that they could do the things that they were interested in 
and do it with the people that were doing it there and get the 
perspective.
    Senator Cortez Masto. Right.
    Dr. Reilly. So, absolutely.
    In fact, I'm very passionate about education in terms of 
the STEM activities and would certainly be a very strong 
supporter of that.
    Senator Cortez Masto. Great. That is great to hear.
    I notice my time is almost up.
    Thank you, I appreciate you being here and welcome to 
everyone.
    Dr. Reilly. Thank you, Senator.
    The Chairman. Thank you, Senator.
    Senator Cassidy.
    Senator Cassidy. Hey, sir.
    Dr. Reilly. How are you, sir?
    Senator Cassidy. I am good. How are you?
    Dr. Reilly. Good.
    Senator Cassidy. I am intrigued by your Ph.D. thesis.
    Dr. Reilly. Yes, sir.
    Senator Cassidy. You know, I used to go to the beach in the 
Florida Panhandle when I was a kid and there would be tar 
balls. Now, I was told it was natural seepage that was 
releasing that, although it could have been a boat just being 
environmentally not good.
    But your research says that you can actually decide looking 
at the microorganisms at the sea floor, as to whether or not it 
is seepage or whether it is hazardous discharge. Fair 
statement?
    Dr. Reilly. Yes, sir.
    Actually we can see that from space, interestingly enough. 
We can document where seepage is occurring naturally and 
whether it's a short-term event or whether it's a continuous 
event.
    Senator Cassidy. So, if we are to speak about that now we 
know that there are all kinds of seepage because, I guess, from 
Texas through Mobile there is so much naturally occurring gas. 
Similarly, can you see from outer space, kind of marrying your 
two interests, yes?
    Dr. Reilly. Yes, sir.
    Senator Cassidy. That there is seepage along that Florida 
Panhandle down the Atlantic, the Gulf Coast of Florida?
    Dr. Reilly. Yes, sir.
    In fact, pretty much anywhere in the world where we have a 
significant amount of sediments with organic material, and 
you'll find some form of hydrocarbon seepage associated with 
that.
    Senator Cassidy. I was once told that in South Louisiana, I 
believe this to be the case, we have a very high rate of 
relative sea level rise because we are taking out water, gas, 
and oil from beneath the ground and so that when support of 
that oil, gas, and water is removed, the ground recedes. So a 
little bit of sea level, but a lot of subsidence.
    I say that to set up this next question. I was once told 
that the more you extract, the less seepage you will have 
because you are just decompressing the ground. Now it might be 
there is so much under there in the Gulf of Mexico that you 
cannot decompress enough, but just your thoughts on that?
    Dr. Reilly. Yes, sir.
    And I'll just revert back to my days as an exploration 
geologist that we're really looking for economic reserves which 
means there has to be a fairly large concentration within a 
relatively small area. And those are the areas that you would 
be pulling the oil and gas out now just about as fast as you 
pull it out in most of the reservoirs, you're filling it with 
water. So, the hydrodynamics will remain about the same, yeah.
    Senator Cassidy. That is in the Gulf of Mexico, not on 
land?
    Dr. Reilly. It's in both, actually.
    Usually, you're below the water table at the depths that 
you'd be producing oil and gas.
    Senator Cassidy. So then my understanding of South 
Louisiana, is that our subsidence is related to extraction. 
What you are telling me is that unless it is a pretty high up 
aquifier, if it is oil and gas, that it is being filled with 
sea water that comes in.
    Dr. Reilly. Actually, I'm not trying to make it quite that 
restrictive, but what is happening in Louisiana is something 
that happens in many of the areas where you have a lot of 
immature clays and the clays are very wet. As the system 
subsides, what's really happening is as the clay is compressed 
you're driving the water out. And that water then leaves, the 
volume drops. It can drop as much as somewhere between 20 and 
40 percent depending on the clay mineralogy that you're dealing 
with. And as such, things have to go down and that's what's 
happening along the coastline in Louisiana.
    Senator Cassidy. That certainly leads me to my next 
question. I think I know, I may overstate this a little bit, 
Grand Isle has subsided nine feet in relative sea level rise 
and that is a barrier island that protects us from storms.
    USGS will be involved with the dead zone predicting the 
amount of fertilizer spilling into the Mississippi watershed. I 
gather you all coordinate with NOAA and then they predict how 
large that dead zone is. That is important because we would 
like to use some of that Mississippi River water in diversions, 
but I am told the more nutrients, the more problematic it 
becomes, et cetera. You see where I am going with that.
    Dr. Reilly. Yes, sir, absolutely.
    In fact, part of the question that led to your bringing it 
up is the interrelationship between all the systems and that's 
really what we need to find out about how the ecosystems 
operate. And that would be just one, that would be one aspect 
of it in terms of how that dead zone is developed, how 
extensive it is, what are the driving factors being able to 
move the water around out of the Mississippi would be one of 
the solutions to the subsidence issue and that we've basically 
kept it channeled either down through Morgan City through the 
Chalmette or down through the Mississippi delta. And as a 
consequence, it hasn't moved around. And that's one of the 
issues that, of course, USGS is looking at in terms of 
subsidence and water levels and particularly, how it's impacted 
with major storms.
    Senator Cassidy. I think what I have heard from you is 
that, what my understanding is that, a lot of our subsidence is 
rather from the levying of the Mississippi River where we no 
longer distribute sediment rich river water to rebuild our 
coastline as opposed to other factors. Is that again your 
understanding?
    Dr. Reilly. That's just a piece of it, sir.
    That's a very, as you might expect and probably understand 
more than I in many ways, but it's a very complex relationship. 
And one of the things that the folks at the USGS are focusing 
on that part of our nation will, of course, be the best to 
answer that question.
    The part I was referring to is really my experience and 
attempting to answer the specifics of the questions as much as 
I could. But of course, to be able to fully answer what could 
we do in terms of the existing conditions and the impacts and 
mitigation, of course, that's one of the things I'd want to go 
talk to the folks that are, the experts in it at the USGS. I 
can get back to you.
    Senator Cassidy. Well, I look forward to having that 
conversation with you and them in the future.
    Thank you very much.
    Dr. Reilly. Yes, sir, I look forward to it.
    Senator Cassidy. I yield back.
    Dr. Reilly. Thank you, Senator.
    The Chairman. Thank you, Senator Cassidy.
    Senator Smith.
    Senator Smith. Thank you, Madam Chair and welcome, Dr. 
Reilly. It is wonderful to have a chance to hear from you and 
thank you so much for your service and for your willingness to 
continue to serve.
    Dr. Reilly. Thanks, Senator.
    Senator Smith. We say in Minnesota that everyone is 
entitled to their own opinion but not entitled to their own 
facts. I am glad to hear your stated commitment to protecting 
the scientific integrity of this organization that you want to 
serve and making sure that you are an honest provider of good 
information. Thank you very much for that.
    I would like to just ask you about a couple of issues that 
are important to Minnesota, where I am from. As you know, we 
are the Land of 10,000 Lakes. It is actually close to 12,000. 
We are very concerned in Minnesota about aquatic invasive 
species. In Minnesota, our surface water is important to our 
heritage, outdoor recreation, and also our economy. We have 
serious problems, as I am sure you know, with Asian carp and 
zebra mussels and other invasive aquatic species. The USGS has, 
of course, been on the forefront of working with us on research 
methods to track the progress of these invasive species like 
Asian carp and also helping us to figure out what kind of 
innovative management practices we want to adopt that can slow 
that spread. I wanted to just ask you for your assessment, your 
thoughts on this work and how you see it fitting into the 
mission of the USGS?
    Dr. Reilly. Yes, ma'am. Thank you for the question.
    Especially when it comes to an invasive species, that's a 
critical factor for a lot of our states. We have that happening 
in multiple places.
    So, of course, that would be one of the focus areas, 
certainly within the ecosystems piece of the USGS. That looks 
like it would also be one where we would have supporting and 
supported relationships with other agencies, Fish and Wildlife, 
for example. Of course, that would be one of the first things 
we'd be wanting to look at would be how can we help and how can 
they help us meet some of the questions that you've just posed.
    And of course, again, I don't have a lot of detail on the 
information because I'm not there yet, but I would certainly be 
happy to loop back with you and give you a more detailed answer 
after I get a chance to be on the ground for a little while.
    Senator Smith. Thank you very much.
    As my colleagues have suggested, we are all concerned about 
the impact of these budget cuts on the ability of the agency to 
work in partnership with Fish and Wildlife and other agencies 
to do work around aquatic invasive species. Can you just talk a 
little bit about how you see that and your commitment to 
protecting that part of your work?
    Dr. Reilly. Yes, the first thing that immediately comes to 
mind would be first, scoping the problem, figuring out what 
resources are required. And of course, that would be dependent 
on the professionals there at the USGS to inform me on that.
    And then would be to get some more feedback, particularly 
coming to your office, for example, working with your staff and 
finding out what is it that are the requirements within your 
state, tie that in with the other states and then try to come 
back with a much better and more integrated answer on how we 
can do that and whether the budget that we are looking at for 
Fiscal Year '19 meets the requirements that we would have.
    And of course, if we had any questions or problems we'd 
certainly bring that to your attention.
    Senator Smith. Very good.
    Well, I appreciate that, and I look forward to working with 
you on that.
    I want to just ask one other question related to water also 
though, you know, in Minnesota we have so much water, we also 
are looking at real important shifts in our aquifers and our 
water that is underground.
    Of course, USGS does so much in terms of geologic mapping 
that is important to this work. The mapping that is done is so 
important for us to learn about what is happening with our 
water resources is the aquifers are being drawn down more and 
more.
    And I guess, I am understanding this research is funded at 
the USGS through the National Cooperative Geologic Mapping 
Program. I don't know if you have had a chance to look into 
this much yet, but I would love to hear your thoughts on the 
importance of that strategy, that program.
    Dr. Reilly. Yes, Senator, I can answer at least one piece 
of that.
    Obviously, the mapping is one of the core obligations or 
core charges for the USGS so we would certainly want to make 
sure we're still meeting the requirements of the people in our 
nation in terms of what they need.
    Aquifers and as I mentioned, as Senator Gardner mentioned 
and I will certainly echo, water is a critical resource in many 
of our states, particularly the West. In fact, if you have any 
extra from Minnesota, we'd love to get it.
    [Laughter.]
    But in terms of being one of the core missionaries for the 
USGS, water is obviously a very large one. And of course, we 
would like to loop back with you, particularly on this one, 
find out what your concerns are, address those concerns, 
specifically, and see if there are any holes in what we're 
doing and certainly look for your feedback from your staff.
    Senator Smith. Well, great.
    Dr. Reilly. Particularly on that one.
    Senator Smith. Thank you very much, I appreciate it.
    Dr. Reilly. Yes, ma'am. Thank you.
    The Chairman. Thank you, Senator Smith.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman, and thank you, 
Dr. Reilly, and for your family and your friends who are here 
supporting you, we welcome them. Thank you for your service and 
also your willingness to continue to serve.
    Dr. Reilly. Thank you, sir.
    Senator Manchin. It is hard sometimes to find good 
recruits. You seem to be the best of the best.
    My colleague, Senator Capito, from West Virginia was 
talking to you about Leetown, and it is very important to us. 
Rather than go through that again, knowing that she and I work 
in a very bipartisan way, we will ask you to come just one 
time, we will make one visit do because everybody else wants 
you to visit also. We want to make sure that you go to Nevada 
and to Minnesota.
    I am glad to see the lakes are growing, from 10,000 to 
12,000. It looks like we are going strong. That is always a 
good sign.
    [Laughter.]
    And all these good things.
    We would all love to have you in our states, you know that.
    Dr. Reilly. Yes, sir.
    Senator Manchin. In 2004 Josh Bolton, well no, let me go 
here first, the issue to discuss is the Committee's expansion 
of energy infrastructure.
    The State of West Virginia is a major producer of energy, 
and we support the rest of the country strongly. Gas pipelines 
are delivering natural gas to our end users and it is apparent 
that we need to have natural gas given the constraints issue we 
saw during the recent bomb cyclone as well as the Russian 
tanker and LNG arriving in Boston during the same cold snap. 
Unbelievable with all the energy we have in our state that we 
had to bring in resources from Russia. I cannot believe it.
    We sit on top of the most promising shale plays in the 
world and we are producing more and we just had another one 
come in which is the biggest in the world.
    I would like to applaud the Administration's commitment to 
domestic producing energy, especially in the gas arena.
    If you could, tell me more about the work the USGS does to 
support permitting agencies. That seems to be the biggest 
problem. We sure don't want to invite any type of environmental 
calamity there, but permitting pipelines as well to ensure the 
pipeline safety to prevent landslide hazards and subsidence. 
And do you see improvements in coordination among the agencies, 
including yours, with the process in sharing or timelier that 
can either accelerate very much, the permits?
    Dr. Reilly. Yes, Senator.
    From my experience in not so much the USGS, of course, but 
certainly elsewhere, there's always room for improvement in 
almost anything we do.
    One of the questions you raise is identifying the hazards 
and the information that would be required to be delivered to 
the permitting agencies so that they can make a safe assessment 
of what has to happen because obviously, one of the core areas 
of the USGS and that of course, be hazards mitigation, as we 
mentioned earlier, would be one of the things we'd focus on 
very tightly because it's one of the things that has a direct 
and immediate response or immediate impact on how we conduct 
our business here in the country, but it's also for the safety 
of our people in the nation. So, that would remain one of the 
top priorities for the USGS.
    Senator Manchin. Let me go to rare earth for a minute, rare 
earth minerals.
    China seems to have the world market pretty much dominated. 
We don't even mine any rare earth minerals, but we use more 
than any other country on Earth on a daily basis. Are you 
concerned about that and what can we do to resurrect that so 
that we can produce, at least for strategic purposes and for 
the security of our nation, do more? I say that because we mine 
a lot of coal in West Virginia, as you know.
    Dr. Reilly. Yes, sir.
    Senator Manchin. We found out through these coal seams and 
the research at WVU that we have a lot of rare earth minerals 
within our coal finds that we could be extracting to give our 
country the supplies, hopefully, that it would need and 
strategically keep ourselves in a very strong position. How do 
you feel about that coming from your scientific background?
    Dr. Reilly. Yes, sir.
    Actually, one of the critical things about the critical 
minerals is how much of them, where are they and are they 
economically producible, obviously?
    You know, I'm not a hard minerals background for the most 
part, but looking at what we have on that list and looking at 
what we need and where we're having to buy it, what you point 
out is a good point and that is it's a strategic vulnerability. 
If somebody were to shut it off we would have a----
    Senator Manchin. I mean, that is the thing I have a hard 
time understanding.
    We keep talking about cost. We know that we can't compete 
when China is dumping the way they dump in so many arenas, but 
from someone has got to make a decision on what we need to have 
a strategic inventory of, supply of, so that we are not held 
hostage because cost is immaterial if we need something and you 
can't get it and they shut us down.
    Dr. Reilly. Yes, sir.
    And what you point on there is a role of the USGS in the 
1879 Organic Act is really to characterize what we have and 
where we have it. That would obviously be part of the answer 
that you'd be seeking.
    Then there's a second piece, of course, is the policy part 
and that's----
    Senator Manchin. We used to have stockpiles of rare earth 
minerals. We used to stockpile around the country. We had 
tremendous stockpiles throughout West Virginia. They have all 
been depleted, done away with. We were hoping that you can, 
kind of, put your scientific touch to this and get us back in 
the right direction and we can protect ourselves.
    Dr. Reilly. I'll be happy to jump on that, Senator.
    [Laughter.]
    That seems like----
    Senator Manchin. Thank you, Doctor, I appreciate it very 
much.
    Dr. Reilly. Thank you. Yes, sir.
    The Chairman. Thank you, Senator Manchin.
    Well, Dr. Reilly, I will invite you up to Alaska.
    [Laughter.]
    I am sure you have seen it from space. It is that really 
big one up at the top and, Senator Manchin, when we talk about 
critical minerals and where we have and rare earths, we have it 
here in Alaska.
    Senator Manchin. I watch your show all the time, Gold Rush.
    The Chairman. Well, we have more than gold. We have 
graphite. You want some graphite? Important stuff.
    We have some very exciting things that are going on up in 
Alaska in terms of the prospects and how we can move forward in 
hopefully accessing them. So we would love to have you as a 
visitor to our state to see for yourself on the ground.
    Let me ask just a couple quick questions here.
    Others have mentioned the hazards programs in their states 
that are relevant and important to them. I have two quick 
matters here.
    NSF has a series of seismic monitors that they have placed 
in the State of Alaska. They are slated, this is the USArray, 
they are slated to be removed at the end of this year. They 
have been in place for several years now. Right now, USGS is in 
talks with NSF and NOAA to adopt these monitors. We want them 
to stay in place.
    My ask this morning is that you commit to working with me 
to retain the network of monitors within the state.
    Dr. Reilly. Yes, ma'am, I'll be very happy to do that.
    The Chairman. Good.
    The other one is with regards to our volcano monitors. They 
are currently operating on an analog system and in 2020 the 
National Telecommunications and Information Administration will 
eliminate the frequency that they use to transmit that data. 
What we need to do is work on this conversion. Again, a simple 
ask, if you will commit to seeing that the Survey works 
diligently to convert those monitors in a timely manner so we 
can continue that very, very important hazard monitoring.
    Dr. Reilly. Yes, Senator, we'll be very happy to work with 
you and your staff on these issues.
    The Chairman. Good. Good. I appreciate that.
    I have no further questions, but Senator Hoeven has arrived 
in time to ask questions.
    You notice everybody is leaving, but it is not because we 
don't like you or don't have more questions, but we do have a 
series of votes that have started.
    I will turn to Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.
    Dr. Reilly, thanks for being here, and I certainly look 
forward to working with you.
    As I know you are well aware, we have the Bakken oil 
formation in North Dakota and parts of Montana and Canada. I 
served as Governor of North Dakota from 2000 to 2010 and that 
was during the period where we really developed the shale play 
because we developed the technology to access it.
    In 2008, I think, the USGS had actually estimated the 
reserves in the Bakken at about 3.6 billion recoverable barrels 
of oil, 1.8 trillion cubic feet of natural gas, recoverable, 
far more in plays. I then asked the USGS to come in, following 
a North Dakota Geological Survey that we have done to do an 
update, and you did that. That was in 2011. You released that 
in 2013 and estimated 7.4 billion barrels of recoverable oil in 
place, more than twice the previous estimate and 6.7 trillion 
cubic feet of natural gas.
    Last August I hosted Acting Director William Werkheiser in 
North Dakota, to ask for a new update both because we have 
improved the technology so much and also because we have a lot 
more data because we have drilled so many more wells. We really 
do now need an update.
    My first question would be, do you commit to following 
through on USGS' plans to continue a new comprehensive, broad-
based resource estimate for the Williston Basin?
    Dr. Reilly. Yes, Senator, we will.
    In fact, one of my first actions will be to get with Bill 
Werkheiser and follow up on this and a number of other ongoing 
programs so I can get up to speed as rapidly as possible.
    Senator Hoeven. Good, excellent.
    And then would you also work with my office, state 
officials and industry stakeholders in compiling the revised 
estimate?
    Dr. Reilly. Absolutely. I look forward to working with you 
and your staff and others in any of these, in any of the 
questions that affect your state.
    Senator Hoeven. And also, you would commit to incorporating 
the latest data, geological surveys, and technical achievements 
in the oil patch out there?
    Dr. Reilly. Yes, sir. I'll leave that to the professionals, 
but absolutely. We'll make sure that happens.
    Senator Hoeven. Right.
    Well, the technology development has been so amazing that 
again, it is not only finding more of the resource, better 
understanding it, but also being able to recover it, not only 
technologically, but on an economical basis so that our 
recovery rates are going up as well.
    It is not just a function of estimating the actual oil and 
gas in place, billions of barrels, trillions of cubic feet, but 
determining the recoverable number which we believe continues 
to grow significantly. That is why it is so important.
    I appreciate your answers. Just one final question would 
be, if confirmed, will you continue the research focus that we 
have had in the coal patch because we really are doing a lot to 
develop the clean coal technology carbon capture storage and 
because we have both coal and oil and gas as well as tremendous 
water with the Missouri River. We really do have the ability to 
not only capture CO2, put it down a hole, but use it for 
tertiary oil recovery. So we would ask your help for that. It 
is not only important to our region of the country but really a 
global issue in terms of carbon capture.
    Dr. Reilly. Certainly, Senator, we'll look forward to 
working with you and your staff on that. Certainly.
    Senator Hoeven. Okay, thanks, Doctor, I really appreciate 
it very much. Thank you.
    Dr. Reilly. Thank you, Senator.
    The Chairman. Dr. Reilly, thank you.
    Dr. Reilly. Thank you.
    The Chairman. I think you have demonstrated, not only 
through your responses today but even before you came to the 
Committee with your background, that you are a dedicated public 
servant. You have a very impressive resume and background and a 
level of interest that we think will not only serve those in 
the USGS well but the Administration and, again, the country. 
So we thank you for that.
    Again, it is my intention to move you quickly through the 
Committee and hopefully move you quickly through the full 
process so that you can get to work, begin those 30 days of 
review that you have committed to us and then focus on the 
priorities of this very important agency.
    Again, we appreciate the support from all of your friends 
and family.
    With that, the Committee stands adjourned.
    [Whereupon, at 11:05 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                               

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


				[all]
</pre></body></html>
